<html>
<title> - BUILDING A 100 PERCENT CLEAN ECONOMY: SOLUTIONS FOR THE U.S. BUILDING SECTOR</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   BUILDING A 100 PERCENT CLEAN ECONOMY: 
                   SOLUTIONS FOR THE U.S. BUILDING SECTOR

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 20, 2019

                               __________

                           Serial No. 116-64
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-621 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                       
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
                         Subcommittee on Energy

                        BOBBY L. RUSH, Illinois
                                 Chairman
SCOTT H. PETERS, California          FRED UPTON, Michigan
MIKE DOYLE, Pennsylvania               Ranking Member
JOHN P. SARBANES, Maryland           ROBERT E. LATTA, Ohio
JERRY McNERNEY, California, Vice     CATHY McMORRIS RODGERS, Washington
    Chair                            PETE OLSON, Texas
PAUL TONKO, New York                 DAVID B. McKINLEY, West Virginia
DAVID LOEBSACK, Iowa                 ADAM KINZINGER, Illinois
G. K. BUTTERFIELD, North Carolina    H. MORGAN GRIFFITH, Virginia
PETER WELCH, Vermont                 BILL JOHNSON, Ohio
KURT SCHRADER, Oregon                LARRY BUCSHON, Indiana
JOSEPH P. KENNEDY III,               BILL FLORES, Texas
    Massachusetts                    RICHARD HUDSON, North Carolina
MARC A. VEASEY, Texas                TIM WALBERG, Michigan
ANN M. KUSTER, New Hampshire         GREG WALDEN, Oregon (ex officio)
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
TOM O'HALLERAN, Arizona
LISA BLUNT ROCHESTER, Delaware
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
    Prepared statement...........................................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
    Prepared statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    78

                               Witnesses

Carl Elefante, Past President, American Institute of Architects..     9
    Prepared statement...........................................    11
Steven Nadel, Executive Director, American Council for an Energy-
  Efficient Economy..............................................    15
    Prepared statement...........................................    17
Curtis J. Zimmermann, Ph.D., Manager, Government Liaison, BASF 
  Corporation....................................................    23
    Prepared statement...........................................    25
    Answers to submitted questions...............................   103
Tim Keane, International Vice President at Large, International 
  Association of Heat and Frost Insulators and Allied Workers....    32
    Prepared statement...........................................    34
Arn McIntyre, President, McIntyre Builders, Inc., on behalf of 
  the National Association of Home Builders......................    38
    Prepared statement...........................................    40
    Answers to submitted questions...............................   107
Elizabeth R. Beardsley, Senior Policy Counsel, U.S. Green 
  Building Counsel...............................................    49
    Prepared statement...........................................    51

                           Submitted Material

Letter of September 20, 2019, from Dr. Lucas Joppa, Chief 
  Environmental Officer, Microsoft, to Mr. Pallone, et al., 
  submitted by Mr. Rush..........................................    80
Letter, undated, from Kara Saul Rinaldi, President and CEO, 
  AnnDyl Policy Group, to Mr. Rush and Mr. Upton, submitted by 
  Mr. Rush.......................................................    82
Letter of September 19, 2019, from Jeremy L. Susac, Vice 
  President of Government Affairs, Sunstreet Energy Group, to Mr. 
  Pallone, et al., submitted by Mr. Rush.........................    87
Statement of the American Public Gas Association, September 20, 
  2019, submitted by Mr. Rush....................................    89
Letter of September 20, 2019, from George H. Lowe, Vice 
  President, Governmental Affairs and Public Policy, American Gas 
  Association, to Mr. Rush and Mr. Upton, submitted by Mr. Rush..    94
Statement of the International Code Council, September 20, 2019, 
  submitted by Mr. Rush..........................................    96
Information on making energy-efficient buildings safe for birds, 
  submitted by Mr. Griffith \1\

----------

\1\ The information has been retained in committee files and also is 
available at http://docs.house.gov/meetings/IF/IF03/20190920/109973/
HHRG-116-IF03-20190920-SD010.pdf.

 
 BUILDING A 100 PERCENT CLEAN ECONOMY: SOLUTIONS FOR THE U.S. BUILDING 
                                 SECTOR

                              ----------                              


                       FRIDAY, SEPTEMBER 20, 2019

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Bobby L. Rush (chairman of the subcommittee) presiding.
    Members present: Representatives Rush, Peters, McNerney, 
Tonko, Loebsack, Butterfield, Welch, Schrader, Kennedy, Veasey, 
Kuster, Kelly, Barragan, O'Halleran, Blunt Rochester, Pallone 
(ex officio), Upton (subcommittee ranking member), Latta, 
Rodgers, McKinley, Griffith, Johnson, Bucshon, Flores, Walberg, 
Duncan, and Walden (ex officio).
    Staff present: Jeffrey C. Carroll, Staff Director; Jean 
Fruci, Energy and Environment Policy Advisor; Catherine 
Giljohann, FERC Detailee; Waverly Gordon, Deputy Chief Counsel; 
Tiffany Guarascio, Deputy Staff Director; Omar Guzman-Toro, 
Policy Analyst; Zach Kahan, Outreach and Member Service 
Coordinator; Rick Kessler, Senior Advisor and Staff Director, 
Energy and Environment; Brendan Larkin, Policy Coordinator; 
Dustin J. Maghamfar, Air and Climate Counsel; John Marshall, 
Policy Coordinator; Elysa Montfort, Press Secretary; Meghan 
Mullon, Staff Assistant; Joe Orlando, Staff Assistant; Alivia 
Roberts, Press Assistant; Tim Robinson, Chief Counsel; Rebecca 
Tomilchik, Staff Assistant; Tuley Wright, Energy and 
Environment Policy Advisor; Peter Kielty, Minority General 
Counsel; Mary Martin, Minority Chief Counsel, Energy, and 
Environment and Climate Change; Brandon Mooney, Minority Deputy 
Chief Counsel, Energy; Brannon Rains, Minority Legislative 
Clerk; and Peter Spencer, Minority Senior Professional Staff 
Member, Environment and Climate Change.
    Mr. Rush. The Subcommittee on Energy will now come to 
order.
    The Chair now recognizes himself for 5 minutes for the 
purposes of an opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    I want to thank you all for joining us this morning for 
this important hearing entitled ``Building a 100 Percent Clean 
Energy Economy: Solutions for the U.S. Building Sector.''
    This hearing is part of a series that we will be holding in 
this subcommittee and in other subcommittees to highlight areas 
where we can achieve significant emissions reductions in order 
to achieve a 100 percent clean energy economy by 2050, as 
Chairman Tonko and I proposed back in July.
    As we know, the building sector is responsible for an 
estimated 40 percent of energy consumed and greenhouse gas 
emissions that are produced nationwide. In the same time, there 
are numerous opportunities for reducing these emissions through 
technology advances, efficiency sufficient standards, and 
innovative programs such as Energy Star, Smart Metering, and 
others that are on the drawing boards.
    Additionally, there are tremendous employment opportunities 
for putting Americans to work in my district and in every 
district in our Nation. These are good-paying, quality 
retrofitting jobs that can not be exported. In fact, earlier 
this week, E4TheFuture released its 2019 energy efficiency jobs 
in America report which show that the energy efficiency sector 
added more jobs than any other energy sector for the second 
straight year. The study noted that there are over 2.3 million 
Americans currently employed in energy efficiency sector 
including more than 89,000 jobs in the State of Illinois and 
over 5,000 jobs in my district on the South Side of Chicago.
    While it is important for Congress to provide resources and 
establish policies to guide actions in these areas of energy 
efficiency, as my bill, H.R. 1315, the Blue to Green Collar Job 
bill does. It is also critical that the Federal Government sets 
the example through its action. You can't lead where you don't 
go.
    There are literally thousands of federally owned office 
buildings, courthouses, post offices, and the likes that must 
be retrofitted in order to save millions, if not billions, of 
dollars annually in energy savings. My staff is working on 
legislation that would ensure that the Federal Energy 
Management Program, or FEMP, must ensure that minority business 
owners and entrepreneurs are able to participate in this 
multibillion-dollar, tax-funded program.
    It is way past the time for the Department of Energy to 
work within these contracts so that these good old boys 
networks are not the only entities receiving these lucrative, 
government-backed contracts.
    Tackling this issue are making our homes, our schools, and 
our business more energy efficient, will save money, put people 
back to work, and expand the American middle class. It will 
help us to address the severe issue of climate change also.
    So I welcome each of these distinguished panelists to 
today's hearing. I look forward to engaging them on the best 
ways to an achieve each of these objectives.
    It is now my distinct honor, privilege to welcome my friend 
and my colleague from the great Midwestern State of Michigan, 
the ranking member, Fred Upton, for his opening statement.
    [The prepared statement of Mr. Rush follows:]

                Prepared Statement of Hon. Bobby L. Rush

    I want to thank you all for joining us this morning for 
this important hearing entitled: Building a 100 Percent Clean 
Economy: Solutions for the U.S. Building Sector.
    This hearing is part of a series that we will be holding in 
this subcommittee and others to highlight areas where we can 
achieve significant emissions reductions in order to realize a 
100 percent clean energy economy by 2050 as Chairman Pallone, 
Chairman Tonko, and I proposed back in July.
    As we know, the building sector is responsible for an 
estimated 40 percent of energy consumed and greenhouse gas 
emissions produced nationwide.
    Yet, there are enormous opportunities for reducing these 
emissions through technological advances, efficiency 
initiatives, and innovative programs, such as Energy Star, 
smart metering, and others.
    Additionally, there are tremendous employment opportunities 
for putting people to work, in my district and in communities 
nationwide, in good paying, quality retrofitting jobs that 
cannot be exported.
    In fact, earlier this week E4TheFuture released its 2019 
Energy Efficiency Jobs in America report which showed that the 
energy efficiency sector added more jobs than any other energy 
sector--for the second straight year, I might add.
    The study noted that there are over 2.3 million Americans 
currently employed in the energy efficiency sector, including 
more than 89,000 jobs in the State of Illinois, and over 5,000 
employed in my district on the Southside of Chicago.
    While it is important for Congress to provide resources and 
establish policies to guide action in the area of efficiency 
initiatives, as my Blue Collar and Green Collar Jobs bill does, 
it is also critical that the Federal Government sets the 
example through its actions.
    There are literally thousands of federally owned office 
buildings, courthouses, post offices and the like that must be 
retrofitted in order to save millions, if not billions, of 
dollars in energy savings.
    My staff is working on legislation that would make certain 
that the Federal Energy Management Program, or FEMP, would 
ensure that minority business owners and entrepreneurs are able 
to participate in this multibillion-dollar, taxpayer-funded 
program.
    It is past time for the Department of Energy to open up 
these contracts so that the same participants of the ``good old 
boys'' networks are not the only entities receiving these 
lucrative, government-backed deals.
    Tackling this issue of making our homes, schools, and 
businesses more energy efficient will save money, put people 
back to work, and help us to address the severe issue of 
climate change.
    So I welcome each of our distinguished panelists to today's 
hearing and I look forward to engaging them on the best ways to 
achieve each of these objectives.
    I would now like to welcome my friend and colleague from 
the great State of Michigan, Ranking Member Upton, for his 
opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman. We are close 
friends for sure. But I also want to thank our witnesses for 
appearing before us today.
    But before we begin, I just want to call our attention to a 
legislative matter that does require the full committee's 
attention.
    As you know, the Pipeline Safety Act is about to expire in 
another week and a half, and we should remind everyone that 
this is a reauthorization bill that we have consistently passed 
with unanimous consent under Republican majorities. I am 
troubled that we are not yet at a point where we can say that 
we have a bipartisan agreement to move forward to full 
committee. We owe it to our constituents to do better. So I 
would hope that we could work together on this bill in the 
short couple days ahead.
    Turning to the subject at hand, I want to use today's 
hearing to focus on real-world solutions to improve the 
performance and environmental sustainability of our homes and 
our commercial buildings. Thanks to innovation and 
technological advancements, we are making great strides to 
reduce energy consumption and enhance building performance, but 
we still have room for improvement.
    So as we consider clean energy solutions for the building 
sector at the Federal level, we have to recognize that these 
high performance, or green technologies, are often more 
expensive to design, build, and maintain. And as policymakers, 
we need to take this into account, especially as we are 
confronted with declining rates of home ownership, increasing 
rental prices and high vacancy rates in any many Americans.
    I believe that cleaner solutions for the building sector 
must meet three core objectives. They have to be affordable, 
cost effective, and they must be driven by consumer demand 
rather than government mandates. Housing affordability is my 
number one concern. It has been reported that housing 
affordability is near a 10-year low, and public polling 
confirms 80 percent of Americans think housing affordability 
is, in fact, in a crisis.
    With a large and growing share of American households 
having difficulty finding housing that they can afford, this 
committee should be focused on ways to make housing less 
expensive rather than piling on more rags and driving up the 
cost.
    I am also concerned about the cost effectiveness of some of 
the proposals such as those with net-zero or carbon-free 
mandates. We need to be honest about the performance tradeoffs, 
the higher up-front cost, and number of years it will take to 
pay back the difference. We have to look at the life cycle of 
the products and the building itself before jumping to a ``one 
size fits all'' regulation that does, in fact, pick technology 
winners and losers.
    Finally, I just believe that clean building solutions must 
be consumer driven in order to be successful. Consumers know 
what they want, they know what they don't like. And they 
question about government telling them what they can and cannot 
have. Americans demand high performance, cost effectiveness, 
and, most importantly, plenty of options to choose what works 
best for them. Experience has shown that consumers are turned 
off by expensive mandates, but they are more open to properly 
placed incentives.
    And as you think about clean solutions for the building 
sector, I would challenge everyone to think about clean 
building solutions that really do add value to their homes.
    With that, I look forward to the hearing. I also want to 
have a special welcome to Arn McIntyre, who has traveled from, 
yes, the great State of Michigan to be with us today. He has 
got a great perspective. He is a custom home builder, a leader 
in energy efficiency and environmentally friendly design, State 
of Michigan building inspector, and he provides research and 
consulting business in the building sector as a whole.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared Statement of Hon. Fred Upton

    Thank you, Mr. Chairman, and to our witnesses for appearing 
before us today. Before we begin, I would like to call 
attention to a legislative matter that requires this 
committee's attention. Mr. Chairman, as you know, the Pipeline 
Safety Act is about to expire at the end of this month. We 
should remind everyone that this is a reauthorization bill that 
we have consistently passed with unanimous consent under 
Republican majorities. However, I am troubled by what appears 
to be a lack of willingness to work on a bipartisan basis this 
time around. We owe it to our constituents to do better, which 
is why Republicans are asking you to please, come back to the 
table and work with us so we can get this bill in shape for a 
full committee markup.
    Now, turning to the subject at hand. I would like to use 
today's hearing to focus on real world solutions to improve the 
performance and environmental sustainability of our homes and 
commercial buildings. Thanks to innovation and technological 
advancements, we are making great strides to reduce energy 
consumption and enhance building performance--but we still have 
room for improvement.
    As we consider clean energy solutions for the building 
sector at the Federal level, we must recognize that these high-
performance, or ``green'' technologies are often much more 
expensive to design, build, and maintain. As policymakers, we 
need to take this into account, especially as we are confronted 
with declining rates of homeownership, increasing rental 
prices, and high vacancy rates in many American cities.
    I firmly believe that cleaner solutions for the building 
sector must meet three core objectives. They must be 
affordable, they must be cost effective, and they must be 
driven by consumer demand, rather than government mandates.
    Housing affordability is my number one concern. It has been 
reported that housing affordability is near a 10-year low and 
public polling confirms 80 percent of Americans thinks housing 
affordability is in a crisis. With a large and growing share of 
American households having difficulty finding housing they can 
afford, this committee should be focused on ways to make 
housing less expensive, rather than piling on more regulations 
and driving up costs.
    I am also concerned about the cost-effectiveness of some of 
the proposals, such as those with ``net zero'' or ``carbon 
free'' mandates. We must be honest about the performance trade-
offs, the higher upfront costs, and the number of years it will 
take to payback the difference. We must also look at the 
lifecycle of the product and the building itself before jumping 
to a one-sized-fits-all regulation that picks technology 
winners and losers.
    Finally, I believe that clean building solutions must be 
consumer-driven in order to be successful. Consumers know what 
they want, and they do not like the Government telling them 
what they can and cannot have. Americans demand high 
performance, cost-effectiveness, and most importantly, plenty 
of options to choose what works best for them. Experience has 
shown that consumers are turned off by expensive mandates, but 
they are more open to properly placed incentives. As we think 
about clean solutions for the building sector, I would 
challenge everyone to think about clean building solutions that 
truly add value to homes.
    With that, I look forward to hearing from the witnesses to 
learn more about the types of clean building solutions that 
consumers are excited to purchase. I would also like to offer a 
special welcome to Arn McIntyre who traveled from the great 
State of Michigan to be with us today. Mr. McIntyre has a very 
interesting perspective: he is a custom homebuilder, a leader 
in energy-efficient and environmentally friendly design, a 
State of Michigan building inspector, and he provides research 
and consulting to the building industry as a whole.
    As I mentioned in the beginning, I plan to spend today's 
hearing focusing on affordability, cost-effectiveness, and 
consumers. I look forward to a constructive conversation, and 
at this time, I yield back the balance of my time.

    Mr. Rush. The gentleman yields back. The Chair now 
recognizes the esteemed chairman of the full committee, my 
friend from the great State of New Jersey, Mr. Pallone, for 5 
minutes for the purposes of an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Rush.
    Today's hearing is the committee's second this week and 
third in a series of ongoing hearings as we work to achieve 100 
percent clean economy by 2050.
    On Wednesday, the Environment and Climate Change 
Subcommittee examined the challenges in the industrial sector, 
and today this subcommittee will review the U.S. building 
sector. We will discuss policies to reduce pollution and save 
money by making our buildings more efficient.
    Residential and commercial buildings are responsible for 
nearly 40 percent of U.S. carbon pollution, more than any other 
sector. And this is not only attributable to electricity 
consumption but also to the use of fossil fuels and furnaces, 
hot water heaters, and other building equipment and appliances. 
Roughly half of building floor space in U.S. is heated by 
fossil fueled fired systems.
    In developing a 100 percent clean economy by 2050 is not 
going to be easy, but it is absolutely necessary. And there are 
policies and solutions in the building sector that can help us 
reach that goal. Reducing pollution from buildings is tied to 
the power sector in how we produce electricity. Buildings 
account for 70 percent of U.S. electricity consumption, and 
that means making them 100 percent clean, requires 
transitioning the power sector to clean, no carbon resources, 
like renewables and nuclear power.
    And perhaps the quickest and easiest way to reduce building 
emissions is by improving building efficiency. Existing energy 
efficiency measures have shown the ability dramatically reduced 
building energy use and the associated operating cost for 
heating, cooling, and lighting. Yet there is much more we can 
do accelerate and broaden the adoption of these technologies: 
Adhering to strong building energy codes, updating Federal 
minimum energy efficiency standards for building equipment and 
appliances, and bolstering Federal support for programs to 
weatherize homes can all make a huge impact.
    Unfortunately, President Trump is stifling this effort to 
both save money and reduce carbon pollution. His administration 
has refused to finalized or update efficiency standards for 
more than a dozen consumer products. At the same time, he is 
rolling back efficiency standards for light bulbs, allowing 
inefficient products to stay on the market for years. And this 
wastes energy and costs consumers more money.
    And as we explore ways to reduce carbon pollution from the 
building sector, we have to improve the energy performance of 
existing buildings that will likely still be in use in 2050.
    So the upfront costs of retrofitting remain a barrier we 
must address. This committee has already taken--already acted 
by passing a bill authored by Chairman Tonko and Rush to 
increase funding for DOE's weatherization assistance program. 
We passed legislation by Representative Kelly to provide funds 
for public building efficiency upgrades, and we passed 
Representative's Stanton and Veasey's bill to reauthorize the 
energy efficiency and conservation block grant program. And 
these are all going to help, but we still need to do a lot more 
to meet the 2050 goal.
    There are several interesting ideas that I look forward to 
exploring today, including performance standards for existing 
buildings, innovative smart building controls, use of net zero 
building materials and designs, and electrification of heating 
and cooling systems.
    States have often been leaders on this issue. My home State 
of New Jersey has a draft energy master plan that calls for the 
electrifying the building sector by 2050 and reducing the 
reliance on natural gas for heating homes and buildings. And 
other States are making similar progress. But the Federal 
Government must also lead efforts to decarbonize commercial and 
residential buildings across the country. Making existing 
buildings more energy efficient can create jobs in every 
community around the country. Over 2 million Americans work in 
energy efficiency, and it is the fastest growing energy sector 
in the whole country.
    So the widespread need for this work also creates 
opportunities to invest in worker training and address local 
unemployment in vulnerable communities. Increasing Federal 
investment in energy efficiency will spur job growth in 
community development that will impact every State and 
district. And reducing building emissions will help us address 
the climate crisis, obviously. It will also lower energy bills 
and make the buildings we live and work in more comfortable, 
safer, and healthier.
    So I look forward to the testimony from our panel of 
witnesses today as we look to find solutions that will work for 
all of us.
    And with that, Mr. Chairman, unless somebody else wants--
there is not much time back.
    I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    Today's hearing is the committee's second this week and 
third in a series of ongoing hearings as we work to achieve a 
100 percent clean economy by 2050. On Wednesday, the 
Environment and Climate Change Subcommittee examined the 
challenges in the industrial sector, and today this 
subcommittee will review the U.S. building sector. We will 
discuss policies to reduce pollution and save money by making 
our buildings more efficient.
    Residential and commercial buildings are responsible for 
nearly 40 percent of U.S. carbon pollution--more than any other 
sector. This is not only attributable to electricity 
consumption, but also to the use of fossil fuels in furnaces, 
hot water heaters and other building equipment and appliances. 
Roughly half of building floor space in the U.S. is heated by 
fossil fuel-fired systems.
    Developing a 100 percent clean economy by 2050 is not going 
to be easy, but it is absolutely necessary and there are 
policies and solutions in the building sector that can help us 
reach that goal.
    Reducing pollution from buildings is tied to the power 
sector and how we produce electricity. Buildings account for 70 
percent of U.S. electricity consumption, and that means making 
them 100 percent clean requires transitioning the power sector 
to clean, no-carbon resources, like renewables and nuclear 
power.
    Perhaps the quickest and easiest way to reduce building 
emissions is by improving building efficiency. Existing energy 
efficiency measures have shown the ability to dramatically 
reduce building energy use and the associated operating costs 
for heating, cooling, and lighting. Yet there is much more we 
can do to accelerate and broaden the adoption of these 
technologies. Adhering to strong building energy codes, 
updating Federal minimum energy efficiency standards for 
building equipment and appliances, and bolstering Federal 
support for programs to weatherize homes can all make a huge 
impact.
    Unfortunately, President Trump is stifling this effort to 
both save money and reduce carbon pollution. His administration 
has refused to finalize or update efficiency standards for more 
than a dozen consumer products. At the same time, he is rolling 
back efficiency standards for lightbulbs, allowing inefficient 
products to stay on the market for years. This wastes energy 
and costs consumers more money.
    As we explore ways to reduce carbon pollution from the 
building sector we must: improve the energy performance of 
existing buildings that will likely still be in use in 2050.
    The upfront costs of retrofitting remain a barrier we must 
address. This committee has already acted by passing a bill, 
authored by Chairmen Tonko and Rush, to increase funding for 
DOE's Weatherization Assistance Program. We passed legislation 
by Representative Kelly to provide funds for public building 
efficiency upgrades. And we've passed Representatives Stanton 
and Veasey's bill to reauthorize the Energy Efficiency and 
Conservation Block Grant Program. These will help, but we will 
need to do a lot more to meet the 2050 goal.
    There are several interesting ideas that I look forward to 
exploring today, including performance standards for existing 
buildings, innovative smart building controls, the use of net-
zero building materials and designs, and electrification of 
heating and cooling systems.
    States have often been leaders on this issue. My State of 
New Jersey has a draft ``Energy Master Plan'' that calls for 
electrifying the building sector by 2050 and reducing the 
reliance on natural gas for heating homes and buildings. Other 
States are making similar progress. But the Federal Government 
must also lead similar efforts to decarbonize commercial and 
residential buildings across the country.
    Making existing buildings more energy efficient can creates 
jobs in every community across the country. Over 2 million 
Americans work in energy efficiency, and it is the fastest 
growing energy sector in the country. The widespread need for 
this work also creates opportunities to invest in worker 
training and address local unemployment in vulnerable 
communities. Increasing Federal investment in energy efficiency 
will spur job growth and community development that will impact 
every State and district.
    Reducing building emissions will help us address the 
climate crisis. It will also lower energy bills and make the 
buildings we live and work in more comfortable, safer and 
healthier. I look forward to the testimony from our panel of 
witnesses today as we look to find solutions that will work for 
all of us.

    Mr. Rush. The Chair yields back.
    Members, want to take just a moment for personal privilege 
before we entertain our--and listen to our witnesses.
    Some 15 years ago, I hired a young man on my staff who has 
been very involved to me such a remarkable and effective, 
brilliant young man. And a few days ago, he informed me that he 
would be leaving my staff to go to the private sector.
    And I must note, and this was a few weeks after he got 
married. So he married a wise woman. She made him leave in 
order to go make some more money. But notwithstanding that, I 
just really wish--this man has meant so much to me, and to each 
and every one of you, I hope. And on his last--this is his last 
hearing before, in this subcommittee. Would you please join me 
in giving John Marshall a big round of applause as----
    [Applause.]
    I would now like to welcome our witnesses for today's 
hearing. Mr. Carl Elefante is the 2018 AIA president, and that 
is the American Institute of Architects. He is here. Welcome, 
Mr. Elefante.
    Mr. Steven Nadel is the executive director of the American 
Council for Energy Efficiency Economy. Welcome, Mr. Nadel.
    Dr. Curtis Zimmermann is the manager of--government 
liaison, rather, for BASF Corporation. Welcome, Mr. Zimmermann.
    And now I would also take at a moment to especially welcome 
to this hearing and acknowledge someone from my home district 
in Chicago, Mr. Timothy Keane, who is the international vice 
president at large for the International Association of Heat 
and Frost Insulators and Allied Workers. Welcome, Mr. Keane, my 
friend.
    Mr. Arn McIntyre, who is the president of McIntyre 
Builders, Inc., on behalf of the National Association of Home 
Builders.
    And lastly Ms. Elizabeth Beardsley, who is the senior 
policy counsel for the U.S. Green Building Council.
    I want to thank you all for joining us here today. And we 
look forward to your testimony.
    Before we begin, a part of our ritual is that there is a 
lighting system before you. And the light will initially be 
green at the start of your opening statement. The light will 
turn yellow when you have 1 minute remaining. Please begin to 
wrap up your testimony at that point. The light will turn red 
when your time is expired, and then a siren will go off if you 
don't adhere to that time.
    Mr. Elefante, you are recognized for 5 minutes.

STATEMENTS OF CARL ELEFANTE, PAST PRESIDENT, AMERICAN INSTITUTE 
   OF ARCHITECTS; STEVEN NADEL, EXECUTIVE DIRECTOR, AMERICAN 
COUNCIL FOR AN ENERGY-EFFICIENT ECONOMY; CURTIS J. ZIMMERMANN, 
   Ph.D., MANAGER, GOVERNMENT LIAISON, BASF CORPORATION; TIM 
  KEANE, INTERNATIONAL VICE PRESIDENT AT LARGE, INTERNATIONAL 
 ASSOCIATION OF HEAT AND FROST INSULATORS AND ALLIED WORKERS; 
ARN McINTYRE, PRESIDENT, McINTYRE BUILDERS, INC., ON BEHALF OF 
  THE NATIONAL ASSOCIATION OF HOME BUILDERS; AND ELIZABETH R. 
 BEARDSLEY, SENIOR POLICY COUNSEL, U.S. GREEN BUILDING COUNSEL

                   STATEMENT OF CARL ELEFANTE

    Mr. Elefante. Thank you, Mr. Chairman.
    Good morning, Chairman Rush, Ranking Member Upton, and 
members of the subcommittee. My name is Carl Elefante, as you 
already know. I am the immediate past president of the American 
Institute of Architects, known as AIA.
    Thank you for this opportunity to share what AIA and its 
more than 94,000 members are doing to make the Nation's 
buildings more energy efficient. For more than 160 years, the 
AIA's mission has remained constant: To advance our Nation's 
quality of life and to protect the public's health, safety, and 
welfare. AIA's founders helped lead the fight for the then-
novel concept of fire codes. Today it is unimaginable that any 
building would be constructed without following them.
    Right now we are at a similar inflection point when it 
comes to the built world: Specifically the necessary role of 
buildings to fight climate disruption. Buildings account for 75 
percent of the electricity used in the United States and 28 
percent of methane use.
    Overall, buildings represent 39 percent of the Nation's 
primary energy use and greenhouse gas emissions. To reduce the 
impact of buildings on our environment and to make our 
communities healthy, secure, and resilient, AIA supports your 
goal of net zero emissions for the buildings by 2050.
    To achieve your goal, we are focused on four imperatives. 
First, net-zero carbon building design; second, net-zero carbon 
renovation and retrofit; third, net-zero carbon construction 
and materials; and fourth renewable energy use in buildings.
    Success of these initiatives will require a holistic 
integrated approach and long-term commitment to incorporate 
these strategies into the design, construction, operation, and 
maintenance of the Nation's buildings. Ultimately in the 
decades ahead, we want them to be as fundamental to the 
construction of buildings as fire and life safety codes are 
today.
    Why? Because the threat posed by climate disruptions to our 
homes, cities, Nation, and planet require that we fundamentally 
reexamine how we develop and adapt the built world.
    To cite one example and one that receives too little 
attention today, it is important to rapidly accelerate the 
retrofitting of existing buildings. It is estimated that in 
order to meet 2050 emissions targets, among other actions, 75 
percent of the existing commercial and institutional building 
stock, 54 million square feet--billion square feet--excuse me--
needs to be renovated or retrofitted that is, on average, 
nearly 2 billion square feet per year.
    For context, that is about four times current rates which, 
by the way, are at an all-time high. That is a prime example 
that highlights the magnitude of the challenge. But as 
architects, facing big challenges is our day job.
    We know that appropriate standards of design and 
construction can be utilized to combat climate disruption. We 
also know that partnership with business, civic, and elected 
leaders is the surest path to success.
    The Nation's architects, engineers, developers, building 
product manufacturers, and others have the technical expertise 
needed to contribute to the fight of climate disruption. 
However, we can do more in partnership with you and your 
colleagues at the Federal, State, and local levels who share 
your vision and our passion to transform the built environment.
    Together we can make a different. Together we can assure 
that buildings help achieve dramatic reductions in energy use 
and greenhouse gas emissions to fight climate disruption.
    AIA looks forward to working with you, this subcommittee, 
and Congress to make our Nation's buildings part of the 
solution to climate disruption through the power of design.
    Again, thank you to the subcommittee for this opportunity. 
I look forward to your questions and our discussion this 
morning.
    [The prepared statement of Mr. Elefante follows:]
    [GRAPHIC] [TIFF OMITTED] T2621.001
    
    [GRAPHIC] [TIFF OMITTED] T2621.002
    
    [GRAPHIC] [TIFF OMITTED] T2621.003
    
    [GRAPHIC] [TIFF OMITTED] T2621.004
    
    Mr. Rush. The Chair recognizes Mr. Steven Nadel, 5 minutes.

                   STATEMENT OF STEVEN NADEL

    Mr. Nadel. OK. Thank you, Mr. Chairman, Ranking Member, 
other members of the committee. I appreciate the opportunity to 
testify here today.
    My organization, the American Council for an Energy-
Efficient Economy, otherwise known as ACEEE, was founded in 
1980 by researchers at universities and National Laboratories. 
We produce more than 30 reports and other research products 
each year on energy saving technologies, programs, and 
policies.
    Earlier this week, ACEEE released a major report entitled 
Halfway There: Energy Efficiency Can Cut Energy Use and 
Greenhouse Gas Emissions in half by 2050. This report shows how 
energy efficiency can make a large contribution toward reaching 
long-term climate goals while also saving consumers and 
businesses money, providing jobs, improving comfort, and 
reducing the health impacts associated with indoor air 
pollution.
    Specifically, our analysis included 11 different efficiency 
opportunities which five address the building sector. Improved 
appliances and equipment, zero-energy new buildings, smart 
buildings, building retrofits, and electrifying existing 
buildings.
    Overall, we estimate that the 11 opportunities can reduce 
2050 U.S. energy use by about 50 percent, cut it in half, and 
also reduce carbon dioxide emissions, in this case by 57 
percent, in total reducing greenhouse gases by about 50 percent 
once we include the non CO2 greenhouse gases.
    The building sector accounts for nearly 40 percent of U.S. 
energy use in emissions. We found from our five buildings 
measures that 2050 building sector energy use could be reduced 
by a little over 50 percent. No single measure dominates the 
savings. The overall savings require the combined effect of 
many different measures as shown in Figure 1 in my written 
testimony. And we are going to try to show it on the screen, 
but I guess that didn't work. So we will--very good. Thanks.
    [Slide shown.]
    In addition, we conducted a policy analysis looking at 
policies to implement each of the efficiency opportunities we 
analyzed. Our policy analysis found a path for achieving about 
90 percent of the efficiency opportunity we identified. A 
little bit more than 90 percent for commercial buildings; a 
little bit less for homes because of the difficulty convincing 
people to retrofit their homes. The allocation of savings by 
policy is shown in Figure 2 of my written testimony, which I 
believe--yes, thank you very much, which shows up there.
    [Slide shown.]
    Let me talk now a little bit more about some of the 
policies, starting with new construction. As the law of whole 
states, when you are in a hole, the first thing to do is stop 
digging. In order to address climate change, one of the first 
priorities is to stop building inefficient homes and buildings 
and instead build them as efficiently as possible.
    While substantial progress has been made, multiple 
organizations are all targeting adoption of codes by 2030 that 
will move towards zero-energy--or zero-carbon new homes and 
buildings when the energy use is summed over the course of an 
entire year.
    Such buildings typically combine high levels of energy 
efficiency, reduce loads about 70 percent below typical new 
buildings, with on-site renewable energy systems to provide the 
remaining energy. And where there it is not sufficient on-site 
renewable energy, off-site renewable energy can be used.
    In order to encourage movement towards these types of 
buildings, we recommend a variety of steps. First, adopt H.R. 
3962 introduced by Representatives McKinley and Welch. This 
includes provisions promoting regular updates of building codes 
as well as a variety of other provisions. It will not require 
zero-energy codes but it set up a process that will further 
study code improvements.
    Two, we recommend going beyond McKinley-Welch provisions. 
And for DOE to assist cities and States in adopting improved 
codes as well as conducting additional research.
    Third, we recommend providing tax incentives for zero-
energy homes and buildings with the incentives eventually 
phasing out as market share becomes substantial.
    And fourth, we recommend requiring that new Federal 
buildings as of a future date be zero-energy buildings. In this 
way, the Federal Government can be a leader.
    While these things may cost a little bit more, citations I 
provided in my full written testimony show how they are highly 
cost effective in terms of the energy savings we will pay back 
the higher cost in just a few years.
    The second area we recommend is doing more on appliances 
and equipment, building on the appliance and equipment 
standards program and also tax incentives to encourage the best 
equipment. In the interest of time, I won't go into details 
there, because I wanted to get to improvements to existing 
buildings, which are very important. Many of the buildings that 
will be standing in 2050 have already been built, and we need 
to make them much more efficient.
    Some of the things we should do is have the Federal 
Government, again, lead by example. When buildings go through 
major renovations, do deep energy retrofits. Likewise, 
Department of Energy can do more to work with cities and States 
on energy use benchmarking and retrofit programs. And we also 
recommend expanding retrofit programs including the 
weatherization assistance program for low- and moderate-income 
families as well as adoption of the HOMES Act that 
Representatives McKinley and Welch have introduced.
    In my written testimony I provide a few examples of 
crosscutting policies as well. And I am happy to answer 
questions about those as well. But since my time is up, I, 
therefore, look forward to your questions.
    Thank you.
    [The prepared statement of Mr. Nadel follows:]
    [GRAPHIC] [TIFF OMITTED] T2621.005
    
    [GRAPHIC] [TIFF OMITTED] T2621.006
    
    [GRAPHIC] [TIFF OMITTED] T2621.007
    
    [GRAPHIC] [TIFF OMITTED] T2621.008
    
    [GRAPHIC] [TIFF OMITTED] T2621.009
    
    [GRAPHIC] [TIFF OMITTED] T2621.010
    
    Mr. Rush. I want to thank you, Mr. Nadel.
    The Chair now recognizes Dr. Zimmermann. You are recognized 
for 5 minutes.

               STATEMENT OF CURTIS J. ZIMMERMANN

    Dr. Zimmermann. Good morning, Chairman Rush, Ranking Member 
Upton, and members of the committee. I am Curtis Zimmermann, 
manager and government liaison of BASF Corporation. We truly 
appreciate the opportunity to----
    Mr. Rush. Will you please speak more directly into the 
microphone.
    Dr. Zimmermann. I am sorry?
    Mr. Rush. Would you please speak more directly into the 
microphone.
    Dr. Zimmermann. BASF Corporation is headquartered in 
Florham Park, New Jersey. We operate over 100 sites in 30 
States and including several represented by members of this 
subcommittee. And BASF employs 20,000 people in North America. 
We are the largest chemical company globally providing a wide 
range of chemistry solutions for all sectors of the economy. At 
BASF, we create chemistry for a sustainable solution including 
a number of solutions for the built environment.
    I provided detailed examples of our chemistry innovations 
used in sustainable construction in my written statement, so 
I'll highlight just a few today as BASF products and materials 
contribute to the efficiency and sustainability for the built 
environmental across the U.S., including our own buildings.
    First, BASF corporate headquarter's building is one of the 
largest sustainable buildings in the State of New Jersey. 
Opened in May 2012, the 325,000 square foot building features a 
number of BASF products and chemistries that lower its energy 
consumption prolong its service life. Designed to achieve lead 
platinum standard in featuring high-efficiency HVAC, lighting, 
glass, and office equipment, our building uses much less energy 
than a conventionally designed building.
    In addition to a number of water saving features and the 
use of recycled materials, it has a 30 percent improvement in 
indoor air quality, and more than half of the energy used for 
building is supplied by renewable sources.
    Many of our facilities have also undergone major roofing 
upgrades utilizing our spray polyurethane foam technology. The 
seamless and monolithic application of the spray foam can be 
applied directly over an existing roof. This not only improves 
the efficiency and during of roof but also lowers labor and 
maintenance costs.
    Additionally, our facility in Huntsville, Alabama, has 
twice been awarded the air pollution control achievement award 
by the city. In 2017, the site performed an LED lighting 
upgrade that saved 1 million kilowatt hours. And in 2018, it 
achieved platinum level 0 waste validation from UL. Currently 
the only manufacturing facility in the southeast to do so.
    More importantly, however, is the sustainability solutions 
that our products provide for for customers. For example, our 
HP+ Wall system embodies a new way to build homes. This 
innovative wall works as a system and features two types of 
insulating foam, spray polyurethane foam and graphite enhanced 
polystyrene foam called NEOPOR. In addition to its superior 
insulating performance, the design capacity of the wall is up 
to 130 percent greater than the design capacity of a standard 
wall making HP Plus Wall stronger than those on typical houses. 
Because of its structural performance, this wall system can 
reduce the amount of lumber needed by up to 25 percent.
    This innovation delivers efficiency and resilience so that 
our customers, who are builders, can better serve their 
customers, the home buyer.
    This brings me to my last point, and that is innovation and 
technology deployment into the built environment. Embracing new 
ways to design, build, and construct homes, buildings, and 
infrastructure will further deliver efficiencies and 
sustainability across this important sector.
    By 2050, the world is expected to hold 9 billion people who 
will not only need food and clean water but will also need 
shelter. How do we construct the buildings of the future that 
meet the demands and growing population while conserving our 
limited resources? What is the role of government in the 
process?
    As an energy intensive company, BASF strives to be as 
energy efficient as possible. BASF has made efforts to play a 
leadership role by incorporating efficiency and sustainability 
into our own buildings as well as providing those same 
solutions for our customers.
    The Federal Government, as the largest landlord in the 
U.S., has an opportunity to do the same. Government can utilize 
tools like energy savings performance contracts and undertake 
deep efficiency upgrades in its own building stock.
    For example, BASF has already supplied a hundred million 
square feet of installed roofing formulations across many 
Federal agencies, including NASA, Navy DOE, and DOD. We 
appreciate these collaborations and hope that the government 
buildings are not unnecessarily wasting money on energy costs 
as that can detract from important mission-specific activities.
    Thank you for the opportunity to testify about the 
solutions BASF is providing for the built environment. There is 
always more to do, and we look forward to working with you as 
you consider ways to further promote efficiency and 
sustainability across the important sector.
    I look forward answering any questions. Thank you for your 
time.
    [The prepared statement of Dr. Zimmermann follows:]
    [GRAPHIC] [TIFF OMITTED] T2621.011
    
    [GRAPHIC] [TIFF OMITTED] T2621.012
    
    [GRAPHIC] [TIFF OMITTED] T2621.013
    
    [GRAPHIC] [TIFF OMITTED] T2621.014
    
    [GRAPHIC] [TIFF OMITTED] T2621.015
    
    [GRAPHIC] [TIFF OMITTED] T2621.016
    
    [GRAPHIC] [TIFF OMITTED] T2621.017
    
    Mr. Rush. I want to thank you, Dr. Zimmermann.
    The Chair now recognizes Mr. Keane for 5 minutes for the 
purposes of an opening statement.

                     STATEMENT OF TIM KEANE

    Mr. Keane. Good morning. My name is Tim Keane, and I am the 
international vice president at large for the International 
Association of Heat and Frost Insulators and Allied workers. 
And I greatly appreciate the opportunity to appear before the 
Energy Subcommittee today.
    Since 1903, when our union was created, our members have 
always been known by many names: Pipe covers, asbestos workers, 
and now insulators. But we are and have always been the 
original clean energy workers.
    While the value of mechanical insulation has been known for 
many years, it is often overlooked. I thank you, Mr. Chairman, 
for today's hearing and for this opportunity to share with you 
and your colleagues the importance of mechanical insulation.
    To summarize my testimony, mechanical insulation is a 
proven, energy-efficient technology that promotes our national 
energy, economic, and environmental goals. Increased 
utilization of mechanical insulation saves energy for 
commercial buildings and industrial facilities that makes our 
Nation more energy independent. The energy savings of 
mechanical insulation also help our economy as our 
manufacturing sector comes more competitive in the global 
economy.
    As a result of reduced fossil fuel energy consumption, 
mechanical insulation also reduces carbon emissions. As the 
House Energy and Commerce Committee and other congressional 
committees work to develop clean energy legislation, the 
insulators encourage your support for the following principles 
that Insulators Union General President McCourt shared with the 
congressional leadership last December.
    The reality of climate change demands that we take 
immediate action to reduce carbon emissions. Another important 
reality is that our Nation will continue to require 
considerable fossil energy to ensure reliable base load power 
for today and tomorrow.
    Our union does not discourage ambitious goals for a 100 
percent clean energy economy, but our focus must be on what can 
be achieved now. The insulators also encourage your support for 
energy efficiency investments that have consistently enjoyed 
strong bipartisan support.
    Clean energy incentives should include both technologies 
like mechanical insulation that are already available for 
increased utilization and investments in research and 
development to promote new clean energy technologies.
    It is also imperative that clean energy legislation contain 
bipartisan building trades labor standards, Davis-Bacon 
prevailing wages, use of project labor agreements to ensure 
that clean energy jobs are good jobs.
    These labor standards recognize that clean energy 
infrastructure should be built by the best trained and most 
productive and safest construction workers. The insulators 
support many specific legislative proposals to increase the use 
of mechanical insulation that you can see in my written 
statement.
    Energy efficiency is often considered the fifth fuel behind 
coal, oil and natural gas, nuclear and renewable energy, or for 
this committee, energy efficiency should be considered the 
first fuel. Because the cheapest and cleanest energy is energy 
that is conserved.
    As I conclude my testimony, I have focused on what the 
insulators are doing to achieve a clean economy. But I also 
want to recognize the important energy efficiency work that 
other building trades unions perform. It is unfortunate that 
some characterize building trades jobs as dirty or temporary 
jobs.
    The truth is that building trades unions and our 
contractors invest 1.3 billion per year in our apprenticeship 
programs that produce the best trained, safest and most 
productive craft workers for long-term careers.
    As Chairman Rush knows, one of the best apprenticeship 
programs in the Nation is my home, Local 17, that is located in 
Chairman Rush's district.
    Thank you, Mr. Chairman. And I am looking forced to 
continuing this important conversation as we work to build a 
clean economy. Thank you.
    [The prepared statement of Mr. Keane follows:]
    [GRAPHIC] [TIFF OMITTED] T2621.018
    
    [GRAPHIC] [TIFF OMITTED] T2621.019
    
    [GRAPHIC] [TIFF OMITTED] T2621.020
    
    [GRAPHIC] [TIFF OMITTED] T2621.021
    
    Mr. Rush. The Chair thanks Mr. Keane.
    And now the Chair recognizes Mr. McIntyre, who is 
recognized for 5 minutes for the purposes of an opening 
statement.

                   STATEMENT OF ARN MCINTYRE

    Mr. McIntyre. Thank you, Chairman Rush, Ranking Member 
Upton, members of the subcommittee.
    I am pleased to appear before you today on behalf of the 
National Association of Home Builders. I would like to share 
our views regarding energy use within residential buildings and 
solutions that encourage energy efficiency that are market-
driven and voluntary without jeopardizing housing 
affordability.
    My name is Arn McIntyre. I am a green builder from Grand 
Rapids, Michigan. My company has focused on designing and 
constructing high-performance homes for 25 years. Most notably, 
my company built the first independently certified green home 
in the State of Michigan in 2002. I also served as one of the 
founding members of the committee that developed the first 
national green building standard in 2008, the NGBS.
    As long-time leaders in the drive to make new and existing 
homes more efficient, one of the biggest challenges continues 
to be balance and efficiency with housing affordability. As 
energy efficiency standards become more stringent, home prices 
increase for new home buyers. In fact, NHB estimates that if 
the median new U.S. home price goes up a thousand dollars, more 
than 127,000 households would be priced out of the market or 
out of housing nationwide.
    First and foremost, Congress must factor in housing 
affordability when looking at solutions for a 100 percent clean 
economy. According to a 2018 study, the Environmental 
Information Administration, the residential sector uses 
approximately 16 percent of the energy consumed in the United 
States. That is residential sector. Because new homes account 
for a small share of a total housing inventory, they use only a 
small share of the annual consumption.
    In contrast, there are 130 million homes built prior to 
2010 that are much less energy efficient than today's new 
homes. Therefore, in addition to housing affordability, any 
efforts to address the energy consumption of homes must 
prioritize the inefficiencies of existing homes over the higher 
performing new homes.
    I would also caution the committee against proposing 
Federal mandates as a solution to building a 100 percent clean 
economy. Mandating energy building codes are requiring builders 
to reach net zero or near zero energy emissions, and usage is 
extremely difficult, costly, and is not consumer driven.
    Many have suggested that mandates are an answer to 
improving residential energy efficiency in reducing greenhouse 
gas emissions. These are highly problematic and have unintended 
consequences.
    As a Michigan State licensed building inspector and home 
energy rater, I am involved in the code process. To simply 
mandate compliance with more stringent energy codes makes 
little sense. Since the codes are developed at a national 
level, many of the energy efficiency provisions are based on 
national construction and cost savings which are of limited use 
on a local level.
    Further, because new construction is already highly 
efficient requiring compliance with with more stringent energy 
codes yields minimal overall benefits yet can impose 
significant costs to new home contribution.
    Finally, any Federal intrusion into the building codes 
adoption process could have catastrophic impact on each State's 
ability to implement codes that best fit their needs. Instead 
of focusing on mandates to reach its clean economy goals, 
Congress should support and facilitate voluntary above-code 
programs. Unlike mandates, these are driven by the market and 
recognized by consumers and result in veritable reductions in 
greenhouse gas emissions.
    Programs such as the ICC 700, the National Green Building 
Standard, Lead, Energy Star, and DOE's Better Building program, 
all have proven track records for reducing energy usage and 
meeting other sustainability and high-performance goals. 
Multiple options of flexibility allow us as builders to choose 
the energy efficiency option that meets our individual needs 
for the market.
    In conclusion, I strongly urge Congress to promote 
voluntary market-driven and viable green building intuitives in 
lieu of mandates to meet energy efficiency goals. These types 
of programs reduce lower total ownership costs through utility 
savings as well as provide the flexibility of builders need to 
construct homes that are cost effective, affordable, and meet 
consumer demand.
    Thank you for the opportunity to testify here before you 
today. I strongly recommend that Congress seriously consider 
and address the housing affordability when exploring solutions 
for a 100 percent clean economy.
    Thank you.
    [The prepared statement of Mr. McIntyre follows:]
    [GRAPHIC] [TIFF OMITTED] T2621.022
    
    [GRAPHIC] [TIFF OMITTED] T2621.023
    
    [GRAPHIC] [TIFF OMITTED] T2621.024
    
    [GRAPHIC] [TIFF OMITTED] T2621.025
    
    [GRAPHIC] [TIFF OMITTED] T2621.026
    
    [GRAPHIC] [TIFF OMITTED] T2621.027
    
    [GRAPHIC] [TIFF OMITTED] T2621.028
    
    [GRAPHIC] [TIFF OMITTED] T2621.029
    
    [GRAPHIC] [TIFF OMITTED] T2621.030
    
    Mr. Rush. Well, thank you, Mr. McIntyre.
    The Chair now recognizes Ms. Beardsley for 5 minutes for 
the purposes of an opening statement.

              STATEMENT OF ELIZABETH R. BEARDSLEY

    Ms. Beardsley. Thank you, chairman. Thanks to the 
leadership and members of the subcommittee. I am honored to 
join you today on behalf of the U.S. Green Building Council, a 
nonprofit organization. We are best known for our leadership in 
energy and environmental design, lead green building system.
    Through lead and other initiatives, we drive sustainable 
and high-performing buildings that improve the quality of life 
for all. We thank the subcommittee for this attention to 
progress on buildings in support of the 100 by 50 goal.
    While climate risks are ever more apparent and urgent, the 
good news is that we can do this. The solution set is robust 
and growing to meet the challenge. This is certainly true in 
the building sector where we have much of the technology and 
can start now.
    Deep efficiency is possible and being achieved every day in 
places like Texas where a recent story reported on a family 
power bill being cut in half after they rebuilt to modern code 
post Harvey.
    We can deploy these cost-effective, commonsense solutions 
and reduce emissions along the way while creating jobs. The 
recent energy efficiency jobs in America report finds this to 
be--this sector to be one of the Nation's biggest employers, as 
noted by the chairman.
    In fact, building technologies are getting so good, 
available, and low cost that net zero is no longer merely an 
aspiration but increasingly a reality. For example, this year 
we recognized the Entergy office in Little Rock as the first 
LEED Zero-certified building in the U.S., and others are in the 
pipeline. In the New Buildings Institute net zero database 
shows more than 600 buildings that are verified or emerging as 
net-zero energy.
    Net-zero buildings are on the rise because these high-
performing buildings are cost effective over their life cycle. 
When you build or retrofit a building to utilize smart 
technology, modern efficient heating and cool, highly insulated 
envelops, and add on-site renewable energy, the results are 
highly cost effective, resilient, and comfortable building.
    Study after study shows that high-performing buildings are 
valued in the commercial market with price and rent premiums, 
improvement in net operating income, and (inaudible) times.
    Just this week, a new report from U.S. GBC Massachusetts 
showed that net-zero buildings can be built with little to no 
additional cost, meaning pay back times were as short as a 
year. And they found that existing office buildings retrofitted 
to net energy with renewables can produce a return on their 
investment in 5 to 6 years.
    Now, as for single-family homes, the Rocky Mountain 
Institute studied the incremental cost of building net-zero 
homes in four U.S. locations. RMI found the cost to build a 
zero-energy-ready home to be between 0.9 percent to 2.5 percent 
over a comparable code home and concluded the cost increase is 
modest, far less than consumers, builders, and policymakers 
realize while predicting costs will continue declining over 
time.
    To put in perspective the benefits, the Discovery School 
across the river in Arlington is in that net-zero-energy 
school. With the money saved from utility bills, the school has 
funded two additional full-time teachers this year. And in the 
Federal space, the NREL campus in Colorado features a net-zero 
building built at cost within the regional construction cost 
average.
    With these positive trends, we see many options for 
bipartisan progress on a suite of approaches. Not every 
building needs to be net zero, but we can aim to give everyone 
the opportunity to benefit from modern building methods on new 
buildings and retrofits to optimize energy efficiency.
    Even when cost effective, improvements face other real and 
perceived barriers that are hindering progress.
    Policy has a critical role in accelerating implementation, 
and a suite of approaches can best speed the rate of adoption 
while enabling continued American innovation.
    Our statement includes a wide range of measures for 
consideration. To highlight a few, first, we should reestablish 
and expand Federal agency targets for annual improvements and 
energy efficiency, renewable energy, and other key metrics, and 
make needed changes to unlock the use of contracting mechanisms 
that leverage private funds for public efficiency and renewable 
projects.
    Second, Federal agencies have a number of existing programs 
providing funds to State and local governments used for 
construction. These programs should ensure that Federally 
funded buildings are highly efficient and resilient, protecting 
Federal investment, and aligning outcomes with goals. 
Additional programs could help feed States and cities in 
improving public buildings.
    Third, we see many positive improvements in the private 
sector. Financial incentives can help bring attention to these 
potential savings, including to small business which may lack 
technical capacity. Different financial models and ensuring 
efficiency is properly valued can also break down barriers. 
Transitioning our building sector to be high performing and 
resource efficient is financially beneficial and is taking 
place now throughout country.
    The building sector could represent significant progress 
towards the 100 by 50 goal. To accelerate this transformation, 
an integrated set of strategies are called for.
    I look forward to discussing more in the questions. Thank 
you.
    [The prepared statement of Ms. Beardsley follows:]
    [GRAPHIC] [TIFF OMITTED] T2621.031
    
    [GRAPHIC] [TIFF OMITTED] T2621.032
    
    [GRAPHIC] [TIFF OMITTED] T2621.033
    
    [GRAPHIC] [TIFF OMITTED] T2621.034
    
    [GRAPHIC] [TIFF OMITTED] T2621.035
    
    [GRAPHIC] [TIFF OMITTED] T2621.036
    
    [GRAPHIC] [TIFF OMITTED] T2621.037
    
    [GRAPHIC] [TIFF OMITTED] T2621.038
    
    [GRAPHIC] [TIFF OMITTED] T2621.039
    
    [GRAPHIC] [TIFF OMITTED] T2621.040
    
    Mr. Rush. I want to thank all the witnesses. We have now 
concluded opening statements, and we will now move to Member 
questions. Each Member will have 5 minutes to ask questions of 
our witnesses, and I will start by recognizing myself for 5 
minutes.
    Mr. Keane, I want to thank you for your willingness here 
this morning, and I appreciate your willingness to work with my 
office to hold an energy efficiency job readiness fair early 
next year in my district. My office will followup with you to 
confirm the logistics. We are eager to work with Local 17 
chapter of the insulators to provide you with hardworking, 
qualified candidates to help swell the ranks of your union.
    My office, Mr. Keane, received information regarding some 
of the programs that you conduct in my district, including the 
Same for all Community Development Program, the South Suburban 
Highway to Construction Career Program, and the Chicago Women 
in Trades Program.
    Can you briefly summarize what each of these programs do 
and how an interested candidate may enlist in each of these 
programs and the impact of each of these programs on energy 
efficiency?
    Mr. Keane. Thank you for the question, Mr. Chairman.
    When we go to these different sectors when we are doing our 
reach out, OK, it is an umbrella. We try to hit as many places 
as we can to make sure that we reach out to all communities.
    With the Women Build Nations, that is a big movement for 
our ladies in the trades to express how being a tradeswoman is. 
As far as the reachouts to the different communities and the 
different groups with Mrs. Ford, we want the communities to 
know that we are there, that we are there for their people that 
we offer not just jobs.
    We offer careers. And we want to really, really bring it 
home with our people all across the board, especially in 
Illinois, in--Chairman Rush, in your district. We want to reach 
out to the people. We want them to learn as they earn with an 
apprenticeship.
    And the big thing is, after their 5-year apprenticeship, 
they were paid to learn for 5 years. And now they are going 
into the job market with not just a job, Mr. Chairman, but a 
career.
    Mr. Rush. I want to thank you very much.
    Mr. Elefante, my offices will be partnering with the 
National Laboratories, coupled with NSN and the Illinois 
Institute of Technology, another organization in one of the 
poorest neighbors in my city in the Englewood community to 
develop affordable energy-efficient housing that can be used as 
a national model.
    I would like to followup with your organization, the AIA, 
to work with these housing developments that will consist of 
some of the most innovative energy efficiency designs possible. 
We would like to work with you if I can followup with you and 
get your organization to work with us. Would that be something 
that you would be interested in?
    Mr. Elefante. Absolutely, Mr. Chairman. Thank you for the 
question.
    Housing design has always, of course, been a really 
important part of what we do. If you look at the statistics of 
the building stock, housing is, you know, an enormous part of 
it, 325 billion square feet of building in the United States of 
America.
    About 2 billion square feet of that is single-family 
residential. The remaining 130-plus billion square feet is 
somewhat equally divided between multifamily housing, 
commercial, and institutional buildings. So each one of them is 
an enormous sector.
    Our work with affordable housing has shown that housing 
affordability and energy efficiency are not oxymorons that 
don't go together. But actually both can be achieved together. 
So we would be happy to work with you to really demonstrate 
that affordability and energy efficiency support each other.
    The last thing I will say on it is to just simply say that 
one of the things that I can say from my own work in the State 
of Michigan, for example, is that you end up with an affordable 
housing unit that then has very low utility bills, in the 
nature of something like 20 percent. And that is a gift that 
keeps on giving.
    Mr. Rush. The Chair is out of time.
    The Chair now recognizes Mr. Upton for 5 minutes for the 
purposes of questioning.
    Mr. Upton. Thank you, Mr. Chairman, I know that we are 
going to be pressed for time because of the votes that are 
going to occur shortly, so let me just yield the first part of 
my time Mr. Griffith from Virginia for----
    Mr. Griffith. Thank you very much. I appreciate you 
yielding.
    As many of you may have seen yesterday, led by some Cornell 
Lab ornithology scientists, a report came out that the breeding 
population of birds in the U.S. and Canada has dropped nearly 
30 percent since 1970.
    The good news is, as we are making buildings more 
efficient, and particularly when we are dealing with glass, we 
can make bird-safe buildings as well. Nearly a billion birds--
estimates range from anywhere from 100 million, 640 million to 
a billion birds a year--collide with buildings and die.
    Accordingly, I would ask--instead of going through all the 
testimony, I would ask that we have unanimous consent to submit 
reports on how we can have both energy-efficient and bird-safe 
buildings. And I would mention that the American Bird 
Conservancy has shouted out yesterday that one of the ways to 
solve the problem is a bill that Mr. Quigley and I have 
introduced. And Mr. Welch and I are currently working on an 
amendment to his energy bill that would incorporate some of 
this language.
    Mr. Rush. Hearing no objections, so ordered.\1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at http://docs.house.gov/meetings/IF/IF03/20190920/109973/
HHRG-116-IF03-20190920-SD010.pdf.
---------------------------------------------------------------------------
    Mr. Griffith. And I yield back.
    Mr. Upton. Thank you, my friend.
    Mr. McIntyre, State and local governments do, as we know, 
play a very key role in the codes adoption process. And I 
believe that it ought to stay that way because State and local 
governments have a better handle on how nationally developed 
codes are going to work in practice, particularly as you look 
at north, south, east, and west.
    Why is it so important to tailor codes to local conditions, 
local market forces, and consumer demands?
    Mr. McIntyre. Well, first----
    Mr. Upton. Versus a one-size-fits-all?
    Mr. McIntyre. First and foremost, our code process now is a 
consensus code process, and it is a vigorous, consensus 
driven--it is input from industry, input from code officials, 
input from builders, input from associations. So it is driven 
by consensus. Then that drafts the overall code or the national 
code that then can go to the States, that the States can adopt 
to their choosing. They can modify it for local conditions. 
They can adjust it for local conditions. They can adopt it 
statewide, as in the case of Michigan with modifications for 
the State of Michigan, which are important to meet the needs of 
the consumer and the market in our State. States also have the 
choice, if they want, to add to that code, if they choose, as 
other States have.
    So having that flexibility as builders, the market, markets 
are not the same across the country. They are not the same 
within a State. Having the ability to adopt the code--and this 
is the code officials in the industry that are--consensus that 
are doing this at the State level, is very critical to have 
that flexibility to deliver the product that the consumer is 
demanding. That is the key. The consumer, if we want this to 
scale, the key is developing a product, a house is a product, 
developing a product that the consumer wants in the area that 
the consumer wants it, and deliver that product to them cost 
effectively, and it will go to scale. Having the ability to 
adopt local codes or adjust to local codes is important for 
that reason.
    Mr. Upton. So as we all think about energy conservation, 
how valuable would it--or is it done very much now where a new 
buyer sitting down with a builder to actually see an audit as 
to what the energy efficiency will be for that home, whether it 
be glass, heating and cooling, water, electrical use, based on 
the size of the----
    Mr. McIntyre. Yes, you are referring to an energy audit?
    Mr. Upton. Right.
    Mr. McIntyre. Part of the value that we need, that the 
consumer needs to realize, they have to see and realize what 
they are going to get.
    Mr. Upton. But is that done now?
    Mr. McIntyre. It is starting to be done. We do it. The 
folks that are building high-performance homes are doing it. We 
are doing it voluntarily. We have a history of the houses we 
built. We have built hundreds of houses that are high-forming 
homes. Low HERS, ENERGY STAR, Energy Value Housing houses, we 
have a record of what it costs to build them, what it costs 
to--how they perform and to live in. And we can start showing 
that to consumers, and then we can model, through software, 
what the performance of their projected home is and give them 
that, I will say, comfort level of how their house is going to 
perform.
    When a consumer comes through the door, 10 years ago--don't 
ask me why that is going off.
    Mr. Upton. Hopefully it is your wife.
    Mr. McIntyre. Shut off.
    Geez.
    Mr. Upton. It is a robocall, but we are going to stop 
those. We passed a bill to get that done.
    Mr. McIntyre. When a consumer comes through the door, 10 
years ago, they weren't looking for energy efficiency. Today, 
when they come through our door, they are looking for it, 
because they know we have the ability to deliver that value. 
And that is what they ask for. So we show them that. We show 
them some history, and then we're on our way to going down that 
road with them.
    Mr. Upton. My time is expired.
    I yield back.
    Mr. Rush. The Chair now recognizes Mr. Pallone, the 
chairman of the full committee, for 5 minutes for the purposes 
of an opening statement--questions.
    Mr. Pallone. Thank you, Chairman Rush.
    Our witnesses today have testified that more than half of 
the residential and commercial buildings that will be standing 
in 2050 have already been built. And as we look for ways to 
achieve net-zero emissions by that year, we will have to find 
effective ways to eliminate emissions from these existing 
buildings. I am actually glad they will still be standing. I 
like old buildings. I don't want to knock them down.
    But my first question will be for either Mr. Nadel or Ms. 
Beardsley or Mr. Elefante. We know that efficiency can go a 
long way in decarbonizing existing buildings, but we need to do 
more than just maximize efficiency. So just talk to us about 
some policy levers we can pull today to reduce or eliminate 
emissions from buildings beyond just improving the energy 
efficiency.
    And I will start with Mr. Nadel, if we could.
    Mr. Nadel. Yes, there are a variety of policies that can be 
pursued, and in particular, let me pick up on something that 
Mr. Upton was asking about. Do we provide information to home 
buyers on the energy efficiency of homes before they buy it? 
For example, the city of Portland, Oregon, requires that when 
you put a home on the market, you provide a 1 to 10 rating. It 
is called the Home Energy Score. It is information that the 
homeowner can consider as they buy the home, and particularly 
since so many homeowners improve their homes right after buying 
it. It can be a powerful incentive. So that would be one thing.
    We do endorse the HOMES Act that Representatives McKinley 
and Welch have introduced. How do we encourage people to make 
those improvements? Likewise, improving--increasing the 
Weatherization Assistance Program, particularly for low-
moderate income families, as well as in tax incentives. But let 
me----
    Mr. Pallone. Well, Mr. Beardsley, I guess--or Ms. 
Beardsley. I am sorry.
    Ms. Beardsley. Thank you, Chairman.
    It is a great question because we talk a lot about energy 
efficiency, and that is the core, but actually there are a lot 
of other pieces to a high-performing green building that can 
contribute to reducing emissions and reducing their energy use.
    So if you think about water, so if we are connected to a 
public water system, that takes energy to withdraw that water, 
to treat it, to pump it to your house or your building. So if 
you are conserving water in your building, that is also 
reducing energy of the system at large. Similarly, if you are 
using a landscape that is lower-water using or you are using 
rain barrels or cisterns or other methods that are less 
needing, potable water, that also reduces that energy.
    And then on the material side, there are lots of choices 
and innovation. This is a great area for the U.S. economy to 
move ahead in different material options. And even with green 
building, there is an intent to try to reduce construction 
waste. So buildings are planned and built in such a way that 
there is reduced waste and it is often reused in other ways or 
recycled for other products down the road, rather than going to 
a landfill or incinerator, and these all contribute to reducing 
emissions.
    Thank you.
    Mr. Pallone. All right. Thank you.
    Mr. Elefante?
    Mr. Elefante. Thank you. I would just like to build on both 
of those comments. First, to the benchmarking, the value of 
data in this. And I would just remind everybody the importance 
of the U.S. Energy Information Agency's database. Everything 
that we do from any kind of a policy or program point of view, 
we have to go back and really look at the data, understand what 
the impact is. The importance of the work of that agency I just 
wanted to underscore. We really need that data to understand 
what our practices need to be.
    And then just related to what Ms. Beardsley just said about 
these other factors, I would just sort of put it out there to 
be thinking about the associated benefits of energy efficiency, 
and I particularly point to health benefits. We went to a 
global energy efficiency conference last year, and really that 
was the nature of that conversation.
    And I would just kind of remind everybody that thinking 
about these associated benefits to the kind of central goals 
here are actually the kind of win-win that really helps drive 
the market and really helps articulate the value of these 
energy-efficient goals that we are seeking.
    Mr. Pallone. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair now recognizes Mr. Latta for 
questioning.
    Mr. Latta. Well, thank you, Mr. Chairman. And thanks to our 
witnesses for appearing before us today.
    Through this hearing today, it is my desire that we will 
continue to focus on improving energy efficiency, which should 
be a bipartisan issue. One of the most successful programs for 
promoting energy efficiency and benefit customers, 
manufacturers, and the environment is the ENERGY STAR program. 
The ENERGY STAR program is a voluntary program run by the 
Environmental Protection Agency and the Department of Energy. 
It allows manufacturers to obtain ENERGY STAR labeling for 
products. Its specific energy savings guidelines are met, 
benefiting consumers that are looking to purchase high-
efficiency energy products.
    I believe that one way we can improve the energy efficiency 
in the building sector is to strengthen this important program. 
That is why I introduced the bipartisan H.R. 2104, the Energy 
Star Program Integrity Act, along with my good friend, the 
gentleman from Vermont. This bill fixes a gap in the Federal 
law by prohibiting the pursuit of private litigation against 
manufacturers who comply with corrective compliance measures 
that were approved by the EPA. This will ensure the ENERGY STAR 
program will operate as intended by maintaining robust, 
voluntary participation by the manufacturers.
    If I could start my questioning with you, Dr. Zimmermann, 
and also, I do have a BASF plant in my district in Whitehouse, 
Ohio, and which I have visited on many occasions. And it is my 
understanding that BASF Corporation has sought out the ENERGY 
STAR label for many of its products. Would you go into some 
detail about these products and how they help create more 
energy-efficient homes and buildings?
    Dr. Zimmermann. Thank you for the question, Mr. 
Congressman. BASF has a variety of products right now that do 
enhance energy efficiency, such as spray polyurethane foam, 
which is a very good example of that. These products bring not 
only reduced energy utilization, but they also provide 
resilience as well through water barrier protection and also 
barrier wrap protection. These are very good products.
    Other products we have like our Green Sense Concrete, these 
are not just product names; it is more of a philosophy around 
developing cement formulations that can really utilize local 
ingredients that reduce the carbon footprint so they are used 
in place. A great example of that is Portland cement can be 
replaced with recyclable material, locally found material, 
again, leading to a reduced carbon footprint in the application 
of those materials.
    A variety of other products, again, from an ENERGY STAR 
perspective, you know, greatly reduce the energy of 
manufacturing, the carbon footprint, the greenhouse gas 
emissions during both manufacturing and use as well.
    Mr. Latta. So it is very important for your company to 
participate in the ENERGY STAR program?
    Dr. Zimmermann. It is very important, and also, we utilize 
our own products in our own facilities to ensure that they are 
running energy efficient.
    Mr. Latta. Do you think there is a merit in strengthening 
the voluntary programs like ENERGY STAR so that more companies 
can continue to innovate with energy-efficient products?
    Dr. Zimmermann. Companies like BASF will continue to 
innovate products for more energy efficiency because we have 
incentive to do that. We certainly don't want to waste energy, 
because it costs money. I think strengthening the program that 
allows for more voluntary adoption would be very good for 
manufacturers.
    Mr. Latta. Thank you.
    Mr. McIntyre, let me turn my questions, if I may. In your 
testimony, you specifically cite the ENERGY STAR program is a 
successful program with a proven track record in reducing 
energy usage in part due to its voluntary nature. Would you 
explain to us why this program is so popular in the 
homebuilding industry?
    Mr. McIntyre. Well, the ENERGY STAR program is one of 
several, and it is--I will say it is somewhat the pinnacle of a 
high-performance home. That can be argued to a degree, but the 
point is, when a consumer comes through your door, they are--
for the most part, they want a performing home. They don't know 
what that means necessarily. You have got to explain that to 
them to a degree. And you have a HERS-rated home. You have an 
ENERGY STAR home. You have green homes that you can do.
    We spend the time to go through and explain to them what 
the difference in performance is and how you get there, the 
system's approach, how you address the envelope, how you 
address the air sealant, how you address mechanical systems. 
Then we give them the option. We tell them we HERS rate every 
home. HERS rating is an energy rating. It is a miles-per-gallon 
sticker for your home. We tell them we rate every home. Here is 
where our homes generally score. That starts to give them the 
feel that, OK, the confidence. We show them some of the energy 
simulations, if they want to get to that level of detail. And 
then we offer to certify the home for ENERGY STAR, and we also 
offer green building programs if they want.
    And about 25 to maybe 30 percent of our customers will want 
to go for the ENERGY STAR certification. Right now, we are a 
small homebuilder. We used to be a lot bigger, but we scaled 
back at the recession and kind of like it that way now, but--
right now, we have one ENERGY STAR home in certification, two 
of them in process. That is probably the max we would have at 
any one time being built, but we leave it up to the consumer to 
make that choice.
    Mr. Rush. Mr. McIntyre, will you bring your comments to a 
close?
    Mr. Latta. Thank you very much to the witness.
    And, Mr. Chairman, my time is expired. And I yield back.
    Mr. Rush. I want to thank the gentleman.
    I want to remind Members that between 10:15 and 10:30, 
there are votes expected on the floor.
    So, with that, I want to recognize now Mr. McNerney for 5 
minutes for questioning.
    Mr. McNerney. I thank the chairman. I thank the witnesses 
this morning. Very interesting testimony.
    So let's take a hypothetical 50-year-old home somewhere on 
the coast of California, maybe 2,000 square foot. What is the 
payback time for retrofitting that for energy efficiency?
    Ms. Beardsley, if you would like to take that.
    Ms. Beardsley. Thank you for the question. It really 
depends on, you know, what the fuel rates are, what fuel they 
are currently using, what the options are in that. But 
generally, the paybacks, as we have seen in some of these 
studies, can be very small. You know, it could be a couple of 
years to maybe 7 to 10 years, but I can answer in detail on the 
record.
    Mr. McNerney. Mr. McIntyre, it looks like you want to say 
something.
    Mr. McIntyre. No, I just wondered if that was a general 
question or--I concur to a degree of what Ms. Beardsley just 
said. It depends on what you are doing to it, the types of 
retrofits you are doing and how far you are going with it. But 
what is important, that is a key piece to the value that we 
talked about. As consumers start to see that return, whether it 
is in their energy bills or whether it is in their gas bills or 
electric bills, they start to see that return, that value, then 
they start incurring more--they will pay more. They will do 
more as they see that value.
    And it is a key to get them to understand that. Once you 
get the market to start understanding that, they know there is 
true payback there, then the market will take over and start 
driving it, which it is starting to do.
    Mr. McNerney. So, Mr. Nadel, could you give me some idea of 
how much regional variation there would be in that answer? You 
know, is there a huge difference between, say, Michigan and 
California in terms of payback?
    Mr. Nadel. There definitely will be regional variation. 
Paybacks tend to be quicker in colder climates like Michigan. 
California is a very diverse State, where you are talking the 
Sierras or you are talking, you know, the desert, but it will 
vary. On the other hand, in California, they use a lot less--
they use a lot less energy to begin with.
    Mr. McNerney. Thank you.
    Again, Mr. Nadel, can time-shifting of energy requirements 
for homes be realistic, say, to sync better with renewable 
energy?
    Mr. Nadel. Definitely there are opportunities to shift the 
time that energy is used, particularly, you know, if you add a 
little thermal mass to the home or include a modest amount of 
storage. California, as I am sure you well know, is moving to 
time-of-use rates, and we expect a lot more of that happening 
in California.
    Mr. McNerney. Well, one of the frequently cited concerns 
with regard to electrification is the operating costs. Is there 
a way to restructure utility billing to sort of levelize that 
problem?
    Mr. Nadel. I mean, I think the general trend is to have 
time-of-use rates so that the rate varies, depending on the 
cost to produce. But then as you are designing the retrofits, 
as you are doing electrification, you need to add a little bit 
of storage and think about it; how can you do more of your 
heating and cooling during those off-peak times and glide 
through the times when the period is high? And, yes, that can 
be done.
    Mr. McNerney. All right. In the interest of time, I am 
going to yield back early, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes Mrs. McMorris Rodgers for 5 
minutes.
    Mrs. Rodgers. Thank you, Mr. Chairman.
    As many of you know, I am proud of how eastern Washington 
has been leading the country in clean energy solutions such as 
clean, renewable, reliable, affordable hydropower. As we 
discuss ways to increase building efficiency, I also wanted to 
highlight a way that we are leading, and that is cross-
laminated timber. CLT is strong, sustainable, and a renewable 
low-carbon building material, and it has the potential to 
significantly increase the energy efficiency of buildings.
    There are two CLT manufacturers in the United States and 
they are both right now in eastern Washington. Vaagen Timbers 
in Colville and Katerra in Spokane Valley. In Spokane, Avista 
Utilities is working to develop an eco district center in our 
community that will be--that will include one of the most 
sustainable buildings in the country using cross-laminated 
timber. And later on today, Katerra is unveiling its new state-
of-the-art factory, which will produce the highest volume of 
CLT in North America.
    These eastern Washington companies are on the cutting edge 
of building a more efficient and sustainable future. I am 
excited about what the potential of new and innovative building 
materials and processes such as CLT have: economic growth for 
rural communities, a cleaner environment, stronger buildings, 
and better forest management.
    So it really is--it is a rural job solution. It is a timber 
solution, but it is also better forest management solution, but 
it also is part of the carbon solution.
    Mr. Elefante, do you agree that the properties of CLT 
mainly in strength, flexibility, sustainability, and ability to 
sequester carbon make it an ideal material to build more 
energy-efficient midlevel buildings?
    Mr. Elefante. So I think that the most important thing 
about CLTs is they indicate what an innovative future would 
look like where we consider carbon sequestration as one of the 
factors. I talked about the four things that we in the building 
sector understand that we must do. One of them is essentially 
embodied carbon which, you know, the CLT technology is a 
terrific example of not just looking for products that are more 
energy efficient, but actually have this additional benefit of 
actually sequestering carbon in the actual material itself. 
There is a lot of innovation happening in that area. I would 
say that at this point, the CLT technology is kind of the 
poster child of just how many layers of benefit can come from 
looking at that sort of innovation.
    Mrs. Rodgers. Thank you.
    I wanted to move on to another important issue in eastern 
Washington, and that is housing affordability. Like many areas 
in the country, we are experiencing a serious crisis in 
affordable housing. We have consistently heard about the desire 
to mandate net-zero buildings across the country. I have 
concerns about how this is going to impact housing costs and 
how it might only add to the current affordability crisis that 
we are in. It is going to be difficult for me to support any 
legislation that would make it more difficult to find 
affordable housing as a result of additional government 
mandates.
    Mr. McIntyre, given your experience building green homes, 
how much more would it cost to go to net zero?
    Mr. McIntyre. Well, one of the key items with net zero, the 
first thing to get to net zero is you got to optimize the 
envelope. You got to reduce your load. That is done a number of 
ways. It is done by the shape of the structure, the 
configuration of the structure. It doesn't matter how you build 
it or what you build it out of; it is just a simple shape. And 
then it is the materials you build it out of to reduce the 
load. But I think it is a pretty fair statement to say that to 
get to net zero, it is going to require renewables or something 
to that effect, and that is where the additional cost really 
comes in at this point.
    To get to an optimized home from, I will say, a standard-
built home, you are talking a few thousand dollars, $5,000 to 
$15,000, in that range. It could be as high as 20. When you go 
to net zero, now we are looking at renewables of some sort.
    I personally just put in a 12-kilowatt system on our farm, 
and I did that work all myself, and I did it because it makes 
sense now because we have net metering. There are tax 
incentives. And the cost of solars come down because it is 
scaled much more than it was 15, 20 years ago.
    So now that they are more affordable, it makes sense to do, 
but they were still $18,000 for me and I installed all of it. 
Actually, it was more like $20,000, and I installed it all. 
That system quoted to me was about 40,000.
    So the difference in cost really starts coming in the PV. 
That is where getting to scale, getting that consumer 
recognition, which is solar--we are starting to see we have net 
metering in Michigan--and now we are seeing solar panels pop 
up, small panels all over in yards and homesteads around 
Michigan.
    Mrs. Rodgers. Thank you.
    Mr. Rush. The Chair now recognizes Mr. Loebsack for 5 
minutes.
    Mr. Loebsack. Thank you, Chairman Rush, Ranking Member 
Upton. And thank you to the witnesses for being here today as 
well. It has been a great discussion. I personally want to 
thank my friend, Mr. Tonko, for letting me go ahead of him.
    Thank you so much, Paul.
    When it comes to tackling the climate crisis, we must be 
committed to finding solutions that reduce emissions now and 
that grow our economy and create new jobs in our communities, 
and I think any investments in infrastructure across the 
country must drive down the costs. For Iowans, where I am from, 
particularly those in the rural communities, promote the 
production and expansion of renewable energy sources and create 
jobs.
    I want to shift the focus a little bit to schools, if I 
could. Today, we are specifically looking at ways to reduce 
emissions and improve energy efficiency in the U.S. building 
sector, but I recently introduced legislation to help achieve 
this goal in our Nation's school buildings. This is the Renew 
America's Schools Act. This bill, which has been included in 
the LIFT America infrastructure proposal, would award $100 
million over the course of 5 years to help schools modernize 
and make critical energy-efficient upgrades to their 
facilities. And to add to that, the legislation also sets aside 
a percentage of funding to be used for educational programming 
for students around the efficiency upgrades so they know what 
this all means for them and for future generations. And they 
can take that home to their parents as well, by the way. I 
think that is a part of this that is really important.
    This is a win-win for workers, students, and parents that 
will help create jobs, reduce emissions, and produce long-term 
cost savings for our schools due to increased energy 
efficiency, all while providing our students with topnotch 
learning environments and educating them about the importance 
of clean and efficient energy technologies.
    We know that the environment in which our students learn 
and educators teach can have an immense impact on the quality 
of education our children receive. My wife was a second grade 
teacher for over 30 years. So she is very aware of that. And, 
unfortunately, many of our Nation's schools are in a really sad 
state of disrepair, as I think everyone here knows.
    First, I would like to go to Ms. Beardsley for a couple of 
questions. In your testimony, you highlighted some of the 
advances being made both in new and existing school facilities. 
First question: Can you elaborate on what you think are the 
most effective upgrades that existing schools can make to their 
facilities in order to significantly reduce emissions and 
improve their efficiency in the short term?
    Ms. Beardsley. Thank you, and I really appreciate your 
sponsoring the schools bill. That is really important.
    With existing schools, it is much like other existing 
buildings. So the basics are improving the envelope and 
upgrading the HVAC systems, the lighting. But, you know, with 
schools, as you alluded to, with students, there is so much 
research. Our Center for Green Schools has collected much of 
this. We have done a State of Our Schools report a few years 
ago, showing the State of the Nation's schools and the need for 
this reinvestment in school infrastructure.
    We know that students learn best when the indoor 
environmental quality is very high, so CO2 levels and oxygen, 
and also when there is daylight and there is connection with 
nature. So schools are a really special environment, and they 
are really important to not just the students, but the whole 
community. So there is really a lot that can be done there to 
increase efficiency, use it as a living laboratory, and really 
help that connect with the community's schools.
    Mr. Loebsack. Thank you. You have kind of answered the 
second question, but you might want to add a little bit to 
that. What are some of the most significant cobenefits that you 
expect to see when schools make improvements to their 
facilities outside of reduced emission and lower energy costs?
    Ms. Beardsley. Right. So we would see, with the indoor 
improved air quality, there would be improved conditions for 
student learning. You may have better wellness, so reduced sick 
days, and that includes the teachers as well, the staff. And 
really, like having that benefit of increased connection with 
nature and daylight, which has been proven to support learning.
    Mr. Loebsack. Thank you.
    I do love going to brand-new schools that incorporate a lot 
of the technologies we are talking about today, but I really 
would like to see more of the older schools be able to do 
exactly the same things and be upgraded.
    Mr. Chairman, in schools throughout the country, buildings 
often lack proper heating, ventilation, and air-conditioning 
systems. Energy costs for K-12 schools total approximately $8 
billion annually nationwide, but according to the EPA, 2 
billion of those dollars can be saved by improving energy 
efficiency. This cost is equivalent to about 40 million new 
textbooks or hiring an additional 50,000 teachers at current 
salaries. We need to think about the opportunity costs there.
    So, thank you very much, Mr. Chair and Mr. Upton, for 
having this hearing, and thanks to the witnesses. And in 
particular, I want to thank my colleague, Mr. Tonko, for 
letting me go before him.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes my friend from West Virginia, Mr. 
McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    Look, as a professional engineer, I have probably spent 50 
years, nearly 50 years in the construction sector specifying a 
lot of low energy--low use--low-energy use and high-efficiency 
building. In fact, my company, about 15, 20 years ago, we were 
some of the first designing LEED-certified buildings in this 
country, and certainly in West Virginia. And we have tried to 
do this, working with my fellow colleague from Vermont, we have 
been able to try to get some accomplishments in energy 
efficiency.
    And I appreciate, Mr. Nadel, you are underscoring two of 
our bills that we are working on, and I think that we can 
advance those. But I guess I don't want it to be a ``but'' on 
there, but there is a concern. And, Elizabeth, you were the 
first--you have mentioned it now for the first time was indoor 
air quality.
    And I have been troubled as an engineer that we tend to 
ignore that, the impact that indoor air quality is going to 
have an effect on it, because it is really going to stress our 
ability to get energy efficient--or, excuse me--energy 
reductions costs. Because we know that typically a classroom 
today, it may be, at best, it has one air turnover an hour, 
maybe at best, but under ASHRAE standards, it wants us to go to 
anywhere from 4 to 20 air changes an hour.
    So we know we are going to be putting a lot more energy 
into our buildings as a result of that to achieve good indoor 
air quality so Little Johnny sitting there next to someone 
sneezing or having some dis--whatever, in the carbon dioxide 
buildup in that classroom is going to affect his or her health. 
So I know we are going to have some impact on that.
    So I am a little curious about how we might be able to 
explain to people their energy demands are going to go up 
because they are currently not meeting good air quality in our 
classrooms. So I am curious to see how we might be able--so 
that with full disclosure that people understand their energy 
costs actually might go up, but their air quality is going to 
improve and Little Johnny and his sister are going to be 
healthier when they get out of that classroom.
    Can you work with me a little bit on how we might be able 
to get the public be more aware that we are going to challenge 
energy for a while?
    Ms. Beardsley. Yes. Thanks, Representative. And I do have 
to mention that I am a frequent visitor to the beautiful Canaan 
Valley of winter.
    Yes, so with schools, again, as with other buildings, what 
we promote is a whole building approach, and that is really 
where you can get the most benefit and the most potential cost 
savings. Even if you improve your air quality with increased 
mechanical air changes in that example, if you are looking at 
the whole building and you are upgrading your lighting, say you 
are going from old incandescent up to LED, you are adding more 
daylighting with better insulated windows, you are upgrading 
your HVAC. If you really look at it as a whole systems 
approach, that is where you can save money even at the same 
time as you are increasing.
    Mr. McKinley. You could I guess, but when you say it can be 
offset with this air, I think it is important for people to 
understand we are going to--if we do the proper air changes, we 
are going to increase at least that component of it. I agree 
with you on lighting and other elements to it. But I think we 
need a full disclosure to make sure people are aware some 
component might actually increase, but the rest of it we can 
offset. It is an educational process we have to do with it.
    So, Mr. Nadel, in the timeframe that unfortunately we got, 
one of the most controversial parts we are getting pushback on 
our legislation has to do with the introduction of the building 
energy codes. From your perception, what is wrong with the 10-
year payback requirement?
    Mr. Nadel. I think a 10-year payback is OK, if you have the 
adequate financing. So, therefore, your loan payments, the 
extra loan payments are less than the energy savings. In that 
case, you get immediate positive cash flow. And with mortgage 
rates today, typically that will be the case.
    Mr. McKinley. So would you suggest we should stay the 
course on this or should we give more flexibility to go beyond 
10 years? What do you think we should do?
    Mr. Nadel. I think staying the course is good but, yes, 
maybe some flexibility. Interest rates go up and down. You 
know, ultimately it should be, if you are going to recommend 
anything rather than an arbitrary period, talk about immediate 
positive cash flow and finance with the mortgage act, the then-
current mortgage rates, because that is going to be the key.
    Mr. McKinley. Thank you, Mr. Nadel.
    And just for all of you, I just hope we have more 
discussion, Mr. Chairman, about indoor air quality, because we 
think we know. That is an area that we need to pay a lot more 
attention to.
    Thank you. And I yield back my time.
    Mr. Rush. The gentleman yields back.
    I want to remind Members that the votes have started, and 
it is the intention of the Chair to recognize two more Members, 
Mr. Tonko and Mr. Griffith. And if either one of them want to 
yield some of their time, then I would certainly be willing to 
grant that.
    But the Chair now recognizes Mr. Tonko for questions.
    Mr. Tonko. Thank you, Mr. Chair. And thank you to our 
witnesses.
    Earlier this week, the Environment Subcommittee held a 
hearing on industrial emissions. I would like to try to explore 
how these sectors are interconnected, which demonstrates that 
comprehensive action is necessary to decarbonize our economy.
    In many cases, industrial products are difficult to 
decarbonize, and this includes building and construction 
materials like cement and steel. Unlike operational emissions, 
embodied carbon emissions in buildings are locked in place from 
day one. They cannot be reduced through retrofits or new 
energy-efficient technologies.
    So, Mr. Elefante, do you have any thoughts on the 
challenges with embodied carbon?
    Mr. Elefante. We don't have nearly enough time. This is 
clearly, I would say, the challenge of 2019, to kind of get our 
arms around what is an emerging challenge. There is actually a 
lot of work. We have a summit coming up next week on this to 
get building product manufacturers, contractors, and architects 
and engineers together to essentially lay out the problem. That 
is how early we are in this.
    But I would also just point to actually some really 
exciting work that is being done across many sectors--the CLTs 
were mentioned earlier--to really address this. And I would 
just kind of add one thought to this, which is that we have to 
be thinking about embodied carbon as something looking forward. 
You know, what is the carbon that we are going to spend from 
this time forward rather than the carbon that we spent looking 
backwards?
    And when you do that, it sort of changes the lens on 
embodied carbon, and the importance of material product 
manufacturer and construction techniques as investments into 
energy savings, then becomes the kind of formula. How much 
carbon are you spending to create that efficiency? How long 
does it take you to capture that efficiency back? A 2050 
timeframe is probably long enough for us to be talking about a 
formula that works.
    Mr. Tonko. Thank you. And how can we encourage lower carbon 
materials are a greater material efficiency for new 
construction?
    Mr. Elefante. There are a lot of ways, but I will point to 
the one that I think is actually most important, and that is 
the analogy of the Federal Government and it as a procurer of 
green building services and green building products. I think 
that the marketplace transformation that we witnessed was 
actually begun in the nineties by the Federal Government 
adopting new standards. And I would just underscore the 
importance of the Federal purse as a procurer to help transform 
the marketplace.
    Mr. Tonko. Thank you.
    And, Ms. Beardsley, what do you think about this whole 
phenomenon? Does LEED, the LEED incentivize these types of 
cleaner materials and greater material of efficiency?
    Ms. Beardsley. Yes, thank you. This is a great topic and 
one that is getting a lot more attention. We have been working 
on it and many of our members for quite a few years, and LEED 
does incentivize by looking at the--there are credits and 
points available if you reduce the whole impact of the 
building, and that includes accounting for key materials.
    And we now have the first LEED-certified steel plant, Big 
River Steel in Arkansas, for example. So that type of facility 
can look at its own operations and employ energy efficiency to 
reduce the embodied carbon in its products.
    I think there are a few things you can do. You first give 
industry the tools to use technology to do energy efficiency in 
the manufacturing plants. Second, R&D to develop new 
technologies, and that is kind of where the CLT came out of and 
there is some really cool work at MIT right now on cement. And 
then, third, encouraging building design and construction teams 
to evaluate embodied carbon as they are making choices on 
materials. And the Federal Government as a procurement body, 
the Buy Clean California Act, there are a number of examples 
where this is starting to take place.
    Mr. Tonko. Thank you. Thank you very much.
    We know the impact of buildings on overall emissions, but I 
would like to focus specifically on direct emissions. Onsite 
fossil fuel combustion in commercial and residential buildings 
accounts for some 12 percent of our Nation's greenhouse gas 
emissions.
    Mr. Nadel, what opportunities and challenges do you see for 
electrification through products like heat pumps?
    Mr. Nadel. OK. Yes, heat pumps are dramatically improving. 
There is a whole new set of cold climate heat pumps. It can 
work better in places like your district. Still, most of the 
available systems are ductless systems, but most homes have 
ducts. I think we need more work on ducted cold climate heat 
pumps to better adapt to existing homes. And I think the 
Department of Energy and EPRI are doing a little bit, but much 
more can and should be done to help refine these systems for 
existing homes and the ducts they have.
    Mr. Tonko. Thank you very much.
    Mr. Chair, I yield back.
    Mr. Rush. The Chair now recognizes Mr. Griffith for 5 
minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    The ranking member earlier yielded to me so that I could 
talk about bird-safe buildings and how we can do that fairly 
efficiently while we are making the buildings energy efficient. 
So I will return the favor for my friend from Michigan to 
another friend from Michigan, Mr. Walberg,
    And I yield to Mr. Walberg.
    Mr. Walberg. I thank the gentleman.
    And I appreciate the fact that we have a gentleman from 
Michigan here today who has extensive experience in what we are 
talking about, including some--a demonstration home in my 
district. Worked with the Emory school district, not far from 
my house, that shows what can be done, but has a reality about 
it of what it costs.
    I represent many areas in my 7th District that are 
extremely rural, and many of the net-zero technologies we 
mentioned here today aren't exactly cheap or accessible in 
Adrian, Michigan, and the surrounding areas. While I am for 
efficiency, and 19 years ago my wife and I renovated and 
restored completely our 1837 vintage farmhouse, and at that 
time, what we did in air-conditioning, heating, electrical 
systems, water systems, everything about that place was up to 
date. That is 19 years ago. And so since then, we have been 
attempting little by little to continue updating to standards, 
but it takes time, and it is expensive.
    So in your testimony, Mr. McIntyre, you mention that net-
zero building is extremely difficult, costly, and impractical 
in many parts of the Nation. Could you elaborate further? Do 
you have examples why this would be the case in States like 
Michigan?
    Mr. McIntyre. Well, a lot of what drives that is the 
complexity of understanding. When you build a net-zero home or 
you build a high-performance home--I won't necessarily go to 
net zero--you build a high-performance home, you need to look 
at the system of the home. You need to look at--build the house 
as a system and understand the whole system. So the complexity 
comes in understanding that.
    The unintended consequences are when we don't understand 
that and we put the wrong parts together, we put them together 
the wrong way in the wrong climate, and we end up with issues. 
We end up with air quality issues. We end up with moisture 
issues, so on and so forth.
    So that is a lot of what drives the difficulties is getting 
the consumer and the industry further along. They have come a 
long ways in the last 10, 15 years, further along in 
understanding, on an education level, understanding the 
complexity of the modern home and a high-performance home so we 
don't end up with those serious, unintended consequences.
    Mr. Walberg. OK. Thank you.
    Mr. Zimmermann, how does customer demand influence the type 
of products you sell?
    Dr. Zimmermann. Certainly, customers are demanding more and 
more resilient and sustainable products. They may specify that 
they want to be able to prove that they have a reduced carbon 
footprint, and we certainly take that into our product design.
    Mr. Walberg. Do they know the specifics that they are 
looking for or are they expecting somebody to tell them?
    Dr. Zimmermann. I think it goes both ways, but certainly we 
are market driven. The market instructs us in terms of what is 
important to them for that particular building sector.
    Mr. Walberg. Hence, it would be incumbent upon us in 
government to make sure that we understand the market as well, 
understand what is out there.
    Dr. Zimmermann. I think there are a lot of technologies out 
there we can take advantage of, and the more we can understand 
what the needs are in the marketplace, the better we can 
service the marketplace.
    Mr. Walberg. OK. Thank you.
    I appreciate the courtesy. And I yield back.
    Mr. Griffith. I will take that last minute 20 real quick.
    Dr. Zimmermann, if you could, does your company have a film 
that they can add to a window or energy-efficiency film that 
also is something that the birds can see?
    Dr. Zimmermann. I am not aware of anything at this point in 
time, but I would prefer to get back to you on that.
    Mr. Griffith. If you would, because I know the products are 
out there. Whether your company makes it or not, there are 
products out there. And if you put it in when youare building 
the building, the cost is nonexistent or minimal. If you wait 
till later, of course, obviously it is much more expensive. But 
with the report coming out yesterday that we have lost up to 30 
percent of the birds in North America since 1970, it is 
something that is high time we take a look at, particularly 
when the cost is low.
    Dr. Zimmermann. I do know we just recently discussed with 
Terraforma One a unique concrete structure for Monarch 
butterflies, including a habitat for them. Perhaps we have 
something for birds as well. I am not aware.
    Mr. Griffith. And there are lots of other things you can 
do, and some of the material I submitted for the record has, 
you know--and some people wouldn't like this but some do--
decorative mesh that you put around the building that lets the 
light come in, but it makes it a barrier that birds can see so 
they don't think they are flying into open space and crash into 
a building and die. When The Guardian publication earlier this 
year put out an estimate as high as a billion dollars, so it 
is--I mean, a billion birds--it is a concern.
    Dr. Zimmermann. I am happy to look into that.
    Mr. Griffith. I yield back.
    Mr. Rush. The Chair now recognizes Ms. Kuster for 1 minute.
    Ms. Kuster. Thank you, Mr. Chair.
    Our votes have been called, but I want to commend the Chair 
and all of you for being here. This is a win-win-win scenario 
and a very bipartisan hearing, and we can save the planet, save 
money, create jobs, and, it turns out, save the birds.
    I am going to just dive right in. I am a proud cosponsor of 
my friend Congressman Welch's bill on improving energy 
efficiency. And my question is about the most cost-effective 
energy efficiency technologies that can be deployed. And, in 
particular, I am from a rural district. Is there anything in 
particular about these technologies for rural communities and 
homeowners that you would recommend?
    Anybody can take it, and our time is short.
    Mr. Nadel. I will start. Smart building controls can often 
be some of the most cost-effective opportunities, particularly 
in commercial buildings, but also there is some in residential. 
But the other residential stuff vary very much from home to 
home or building to building. That also brings into rural areas 
the need sometimes for rural broadband, which is a whole big 
issue but something that ultimately we need to address if we 
are going get all the benefits to all of the U.S. and not just 
the urban areas.
    Ms. Kuster. And definitely, we are working on that as well. 
By that, you mean smart technology so that homeowners and 
business owners can control their energy efficiency and their 
use?
    Mr. Nadel. Often it means having sensors that help identify 
when something is out of kilter and either automatically 
adjusting or at least letting people know so that they don't 
just go for years and years unaware of the problem.
    Ms. Kuster. Any other quick ideas? Quickly.
    Ms. Beardsley. First of all, weatherization, so definitely 
getting better insulation in these buildings. And then, 
secondly, making sure that there is availability of high-
efficiency products and that the workforce is trained so that 
naturally as HVAC breaks down and needs to be replaced, it is 
replaced with high efficiency.
    Ms. Kuster. Great. Very helpful. I should have mentioned 
cold and rural. So, thank you.
    Mr. McIntyre, sure.
    Mr. McIntyre. If I can just make a quick comment on that. 
The quick analogy, in my perspective, is address the envelope 
first, address the load of the building first, what the 
building needs, and then address the efficiencies of what goes 
into it.
    If we put high-efficiency systems into a building that we 
don't address the building, I have a simple analogy for that 
that I tell customers regularly and I put in my presentations: 
That is wasting energy more efficiently.
    Ms. Kuster. Thank you. Having grown up in a very drafty 
colonial, I can relate. Thank you very much. Thanks for your 
time.
    And thank you, Mr. Chair.
    Mr. Rush. The Chair now requests unanimous consent to enter 
into the record five documents.
    And, without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. That concludes the witnesses' questions, and I 
would like to thank all of our witnesses for their 
participation in today's hearing.
    I must remind Members that, pursuant to committee rules, 
they have 10 business days to submit additional questions for 
the record to be answered by the witnesses who have appeared. I 
ask each witness to respond promptly to any such questions that 
you may receive.
    And at this time, the subcommittee stands adjourned.
    [Whereupon, at 10:45 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared Statement of Hon. Greg Walden

    Good morning, Mr. Chairman. This is the second climate 
change hearing this week, and while Republicans are serious 
about finding real solutions to address the real issues our 
constituents are dealing with, Democrats continue to waste time 
on politics, when we could be passing legislation that already 
has bipartisan support into law. Let's change the narrative and 
put progress before politics.
    Mr. Chairman, two weeks ago, we highlighted seven bills 
that are very close to the finish line, but they require you 
and your Democrat colleagues to act. I am talking about 
legislation to promote the development of carbon capture and 
utilization projects; a bill to reduce wildfire risks through 
active forest management; a bill to promote advanced nuclear 
energy technology; a bill to cut energy use in Federal 
buildings; a bill to remove hurdles to energy efficiency 
improvements; and, a bill to boost R&D for carbon capture 
technology development. These are just a few examples where 
Democrats on the committees of jurisdiction and on the NDAA 
Conference Committee could work with Republicans to reduce 
emissions, promote clean energy, and conserve our natural 
resources.
    When it comes to ways to save energy and improve the 
performance of the homes where we live and the buildings where 
we work, Republicans have solutions that are affordable, cost 
effective, and appealing to consumers. We don't need a Big 
Government solution for everything. With a careful balance of 
incentives and market-driven policies, consumers will choose 
the products and services that work best for them.
    When it comes to Federal buildings, Republicans support 
public-private partnerships such Energy Savings Performance 
Contracts, which offer an innovate solution for the Federal 
Government to reduce energy consumption at little to no cost to 
taxpayers.
    In my home State of Oregon, we are on the leading edge of 
developing an innovative new wood product, such as cross-
laminated timber, which could be a real game changer for 
sustainable forest management and low carbon building design. 
Cross laminated timber has the potential to substantially 
reduce the carbon footprint of new buildings by replacing steel 
and concrete with a manufactured wood product in certain 
applications. These wood products not only sequester carbon, 
they help us sustainably manage our forests to reduce the risk 
of wildfire which, as we know in Oregon, contributes to poor 
air quality and carbon emissions.
    Mr. Chairman, rather than following New York and 
California's example with a ``Green New Deal'' Federal mandate 
for buildings, I urge you to work with Republicans on more 
practical solutions. The costs imposed by these Green New Deal 
policies fall disproportionally on low income and minority 
families, many of whom are already forced by the housing crisis 
to endure long commutes because they cannot find affordable 
housing close to work. As a result, we end up with more cars on 
the road and more GHG emissions. This is just one example of 
the unintended consequences, and precisely why Republicans are 
advocating a balanced approach that takes these issues into 
account.
    I believe we should encourage the development and use of 
innovative new building materials such as cross-laminated 
timber. We should also support the development of new 
technologies that use less energy, but we need free markets and 
consumer choice to drive that innovation. Bottom line--the 
Federal Government could mandate that architects design 
buildings certain ways, and mandate that builders build 
structures certain ways; but if consumers cannot afford what 
they are designing and building, it is all for nothing.
    A top-down government mandate will only stifle growth and 
make homes and buildings more expensive. I firmly believe we 
can find common ground with solutions that are focused on 
affordability, cost-effectiveness, and as always, consumers.
    As I said on Wednesday, we are waiting at the table and are 
ready to continue the work we started last Congress. Let's stay 
focused on real solutions, and let's work together.
    Thank you, I yield back.
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    

                                 [all]
</pre></body></html>
